            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  THE SOCIAL SECURITY ADMINISTRATION’S
  DEVELOPMENT OF EARNINGS ALERTS FOR
SUPPLEMENTAL SECURITY INCOME RECIPIENTS


      December 2012   A-02-11-11185




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM


Date:      December 20, 2012                                                        Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   The Social Security Administration's Development of Earnings Alerts for Supplemental
           Security Income Recipients (A-02-11-11185)


           OBJECTIVE
           Our objective was to determine the effectiveness of the Social Security Administration’s
           (SSA) development of earnings alerts for Supplemental Security Income (SSI)
           recipients.

           BACKGROUND
           SSI is a needs-based program for aged, blind, or disabled individuals, and recipients
           must meet certain income and resource limits for eligibility. 1 Income is counted on a
           monthly basis and, generally, the more income a recipient has, the lower his/her benefit
           payment will be. 2 An individual who has too much income in a particular month is not
           eligible for SSI in that month. 3 Income includes wages and net earnings from
           self-employment. 4 Disabled or aged SSI recipients (or their representative payees) are
           responsible for reporting any information that may affect their eligibility or payment
           amount. 5

           SSA systems alert Agency staff when financial information reported by recipients does
           not match information from other sources, such as other Federal and State agencies.
           SSA systems generate K6 and K7 alerts6 when wage information provided by the

           1
             The Social Security Act § 1611, 42 U.S.C.1382. See also, SSA, POMS, SI 00501.001, Eligibility Under
           the Supplemental Security Income Provisions (January 18, 2005).
           2
               SSA, POMS, SI 00810.300, Computing Countable Income General Information (October 19, 2011).
           3
               SSA, POMS, SI 00810.001, Income and Supplemental Security Income Eligibility (September 26, 2011).
           4
               SSA, POMS, SI 00810.015, Types of Income (September 26, 2011).
           5
               SSA, POMS, SI 02301.005, SSI Posteligibility – Recipient Reporting (November 5, 2007).
           6
               SSA uses the terms “alerts” and “diaries” interchangeably.
Page 2 - The Commissioner


Internal Revenue Service (IRS) exceeds the earnings for the tax year reported by SSI
recipients. 7 SSA systems generate K6 and K7 alerts in September of each year 8 after
the IRS and SSA databases are matched. When State-reported wages exceed the
wages reported by SSI recipients, SSA generates S2 alerts. 9 SSA systems generate
these alerts quarterly.

As of July 2012, active SSI records had 313,167 earnings alerts pending. (There were
approximately 140,000 K6 and K7 alerts and 173,000 S2 alerts.) Of these pending
alerts, over 235,000 (75 percent) were pending for 6 months or longer.

SSA designed the earnings alert system to ensure individual records are current and
accurate. The accuracy of earnings information is important since earnings affect a
recipient’s SSI eligibility and/or payment amount. SSA staff must resolve the
discrepancy in earnings information highlighted by the earnings alert, correct the
earnings information in SSA’s Supplemental Security Record (SSR), determine past
and continuing SSI eligibility, and pursue any overpayment recovery.

Limited Issue Reviews and Redeterminations

SSA addresses earnings alerts as limited issues (LI)10 or redeterminations. 11 LI cases
require that SSA staff develop a specific issue or event without conducting a
redetermination. A full redetermination is a review of all a recipient's or couple's
non-medical eligibility factors (that is, income, resources, and living arrangements) to
determine whether the recipient or couple is still eligible for, and receiving, the correct
SSI payment. SSA profiles cases based on multiple factors, 12 including whether the
7
 SSA systems generate a K6 alert if the recipient or deemor’s earnings on the Master Earnings File
(MEF) exceed the amount on the SSR by $1,000 or more or a K7 alert if a deemor’s earnings exceed the
amount posted on the SSR by $2,000 or more and either the MEF contains an amended earnings report
or the SSR does not reflect any earnings for the deemor.
8
  Although an interface is done every August, following the close of a tax year reporting period, the initial
release of K6 and K7 alerts to SSA field offices may occur later in October. A supplemental release is
usually scheduled in March of the following year.
9
  SSA matches the SSR against the Office of Child Support Enforcement’s National Directory of New
Hires wage database looking for significant wage discrepancies for SSI recipients and deemors in all
States and the District of Columbia. An alert is generated when the wage amount for a quarter exceeds
the SSR wage amount for that quarter by more than the “tolerance.” The tolerance for a recipient’s wage
is $250 for a quarter. The tolerance for a deemor’s wage is $500 for a quarter. The Office of Quality
Performance also scores the S2 alert cases; the lowest 25 percent scored cases are not posted to the
SSR for development. The S2 alert will not be generated for self-employment income because it is
reported annually, not quarterly.
10
   The field office may select a case for limited review because of a single issue, such as an alert resulting
from a match between SSA’s records and those of another agency.
11
     SSA, POMS, SI 02305.001 (October 4, 2007) defines redeterminations.
12
  Modernized SSI Claims Systems (MSSICS) income, resource, and living arrangement variables are
used to determine whether cases are selected for redeterminations.
Page 3 - The Commissioner


case has an earnings alert on record, when determining which cases will have full
redeterminations. SSA further ranks redeterminations as those with a high, middle, or
low error profile. Cases with a higher error profile are more likely to contain errors that
affect a recipient’s eligibility or SSI payment amount. 13

Redetermination and limited issue cases are included in SSA’s redetermination
workload, and SSA management places the same priority on both types of review. SSA
instructs its field office staff to regularly monitor this workload in Starz and Stripes the
Next Generation (SSTNG), which is a system that tracks the workload, or other
management information. 14

Administrative Finality and Diligent Pursuit

The Agency’s administrative finality policy prevents recovery of overpayments that
occurred more than 2 years earlier 15 unless staff finds that fraud occurred or similar fault
applies. Similar fault exists when there is no fraudulent intent and a wide discrepancy
exists between new data and the data previously reported by a recipient as well as
when other criteria are met. 16

When SSA staff diligently pursues alerts, the Agency can recover overpayments that
occurred up to 2 years before the date of the alert. When staff does not diligently
pursue alerts, SSA can only recover overpayments that occurred 2 years before the
date the alerts were processed. POMS 17 defines diligent pursuit as developing alerts
within 6 months, but it does not mandate staff clear earnings alerts within that time limit.




13
   According to the Office of Quality Performance report, SSI Redeterminations Change Rate Study Fiscal
Year 2010 (December 2010), the likelihood of overpayment is the sole criterion for selecting Profile C
high error profile redeterminations. Other redeterminations, such as Profile A or Data Operations Center
exclusions, are selected based on a combination of a lower likelihood score and other case
characteristics, such as manual deeming. Still other redeterminations are selected because of case
characteristics only, such as the attainment of age 18 or 22 for Profile K. Limited issues are selected
from cases that would not normally be selected for a redetermination except for the existence of a diary,
such as an earnings alert.
14
   A list of pending initiated redeterminations can be obtained from SSTNG or the redetermination/limited
issue pending list in Management Information Central. Staff can access Management Information Central
via the Executive and Management Information System Webpage on SSA’s Intranet.
15
  SSA, POMS, SI 04070.010 (September 9, 2011) states a determination or decision can be reopened
and revised at any time upon a finding of “fraud” or “similar fault.” SSA, POMS, SI 04070.020
(March 2, 2012) discusses the definition for fraud and similar fault in detail.
16
     SSA, POMS, SI 04070.020 (March 2, 2012) discusses other criteria needed to establish similar fault.
17
  SSA, POMS, SI 04070.040, Revising SSI Determinations (June 14, 2005). SSA considers earnings
alerts to meet “diligent pursuit” criteria when they are developed within 6 months.
Page 4 - The Commissioner


Redetermination Workload Management

Before Fiscal Year (FY) 2013, SSA instructed its staff to complete 55 to 60 percent of
the redetermination workload within the first 6 months of each FY. SSA’s goal was to
address the remaining 40 to 45 percent of the redetermination workload in the second
part of each FY. SSA ended the practice of setting a mid-year goal for redeterminations
as of FY 2013.

Audit Population

To meet our objective, we identified from 1 segment of the SSR 16,952 recipients in
current pay status with an earnings alert in May 2009. To determine how efficiently staff
developed these alerts, we obtained SSR data for the same Social Security numbers
(SSN) 1 year later – in May 2010. 18 From this match, we identified 2,883 SSI recipients
who were in current pay status and still had an unresolved earnings alert for at least
17 months as of May 2010.

We randomly selected a sample of 250 of the 2,883 cases and reviewed SSA’s
records 19 in April 2011 to determine whether SSA staff resolved the earnings alert and
posted overpayments accordingly. If the earnings alerts were not developed, we
determined the potential overpayments. In September 2011, we requested that SSA
review 114 of our sample cases because we believed they were overpaid. In May
2012, the Agency confirmed that 109 of our 114 cases were overpaid.

RESULTS OF REVIEW
SSA’s development of SSI earnings alerts was not fully effective. While SSA has the
opportunity to record the largest possible overpayment caused by earnings if it diligently
pursues earnings alerts, over 86 percent of the 16,952 earning alerts we identified in
May 2009 had been pending over 6 months. In May 2010, 2,883 of the 16,952 earnings
alerts were still pending.

We reviewed a sample of 250 of the 2,883 recipients in April 2011, which was
28 months after the month SSA systems generated the alerts. We reviewed cases that
SSA had developed and those it had not. For those not developed, we identified
improper payments caused by the earnings that generated the alerts. We also
reviewed cases SSA developed and found additional improper payments that SSA did
not identify. SSA confirmed our findings, which are detailed in the following table.



18
   Using the SSN, we extracted the SSR again about 1 year later and compared the field containing alerts
to the original data because the SSR does not retain the alerts once they are cleared.
19
  We reviewed SSR, MSSICS, Detailed Earnings Query, Summary Earnings Query Systems, and other
pertinent information related to earnings development and alerts in SSA’s Intranet, such as the SSI Diary
Replacement Alert System.
Page 5 - The Commissioner


                                                   SSA Identified       OIG Identified
                                  Number of          Improper             Improper
                                  Individuals      Payment as of        Payment as of
                                                     April 2011           April 2011
SSA Identified Overpayment             73             $213,326                 $0
SSA Identified
Overpayment/Underpayment,
                                       58             $206,321             $159,933
but OIG Identified Additional
Overpayment
SSA Identified No
Overpayment, but OIG                   51                $0                $317,619
Identified Overpayment
No Overpayment                         68                $0                    $0

             Total                    250             $419,647             $477,552

Approximately $300,000 of the total improper payments we identified was uncollectable
because SSA staff did not diligently pursue the earnings alerts. Based on these results,
we estimate that SSA could have recorded approximately $110 million more in SSI
overpayments for almost 25,140 recipients than it identified if it diligently pursued
earnings alerts. Additionally, SSA still had not developed the earnings alerts for nine
recipients in our sample as of May 2012, over 41 months after the initial date of the
earnings alerts.

SSA’s management of its redetermination workload may have limited the number of
cases with earnings alerts SSA staff diligently pursued. Before FY 2013, SSA
instructed its staff to complete 55 to 60 percent of the annual redetermination workload
within the first 6 months of a FY. Since earnings alerts are usually generated in the first
half of a FY and addressed through the redetermination workload, delaying
development of 40 to 45 percent of the redetermination workload to the second part of a
FY lowered the likelihood that earnings alerts in these cases will be diligently pursued.
SSA’s policy to diligently pursue earnings alerts allows SSA to record the largest
possible overpayment when SSA staff confirms unreported earnings. Delays in
developing earnings alerts may lower the amount of improper payments SSA can
collect from overpaid recipients.

Furthermore, some of the earnings alerts that had been generated may have been
unnecessary. Of the 250 recipients in our sample, 46 had alerts identifying earnings
that were too low to change the recipient’s payment amount. Most of these recipients
were children living with their parent(s) and/or multiple siblings, and the earnings would
have needed to be much higher than those for an individual who lived alone to affect
their SSI payment amount. A more defined earnings alert system that accounts for all
factors that may affect a payment change may allow the Agency to more efficiently use
its limited resources.
Page 6 - The Commissioner


DILIGENT PURSUIT OF EARNINGS ALERTS

The Agency’s administrative finality rule generally allows recovery of overpayments that
occurred up to 24 months before SSA staff develops an overpayment. The date SSA
uses to calculate an overpayment period can vary for cases with earnings alerts
depending on when SSA begins developing an earnings alert. When SSA staff begins
developing the earnings alert within 6 months of the date the alert was generated, it can
recover overpayments caused by the recipient’s earnings up to 24 months before the
alert was generated.

When earnings alerts are not diligently pursued, SSA can only recover overpayments
24 months before the date SSA staff started developing the alert. This is especially
important for K6 and K7 alerts, which inform staff of earnings from the previous year.
S2 alerts are generated 6 to 9 months after the claimant earned the wages.

The following three examples demonstrate the effect of the diligent pursuit and
administrative finality rules. As the examples show, the amount of an overpayment
caused by unreported earnings SSA staff can pursue depends on how quickly SSA staff
addresses an earnings alert.

For all three examples, SSA systems generated the K6 earnings alert on
September 15, 2009 for earnings in Calendar Year 2008. The SSI recipient did not
report the earnings and SSA identified the earnings through a data match with the IRS.

Example 1 – SSA diligently pursued the earnings alert and was able to post the full
overpayment amount.

•   SSA staff initiated a redetermination to develop the alert by March 14, 2010, within
    6 months from the date the alert was generated.
•   SSA staff could review the recipient’s earnings back to October 2007, which was
    2 years before the alert date of September 2009.
•   SSA staff determined the alerted earnings caused the recipient to be ineligible for
    SSI payments and overpaid $500 a month for 12 months between January and
    December 2008.
•   SSA staff posted the total overpayment amount of $6,000 on the recipient’s record.

Example 2 – SSA did not diligently pursue the earnings alert and could only partially
post the overpayment amount.

•   SSA staff did not initiate the redetermination until September 15, 2010, about 1 year
    after the alert was generated.
•   SSA staff determined the alerted earnings between January and December 2008
    belonged to the recipient and identified an overpayment of $500 each month, for a
    total of $6,000.
Page 7 - The Commissioner


•    SSA staff could only consider the earnings 2 years before the date the staff opened
     the case since it did not diligently pursue the earnings alert. Accordingly, it could
     only address earnings from October 2008 to September 2010.
•    SSA staff determined the earnings caused the recipient to be ineligible for SSI
     payments between October and December 2008 and posted an overpayment of
     $1,500 on the record.
•    Because of the diligent pursuit and administrative finality rules, the Agency could not
     post overpayments incurred from January to September 2008. SSA missed the
     opportunity to record and collect $4,500 in overpayments that it could have recorded
     had the staff developed the earnings 6 months earlier.

Example 3 – SSA staff did not diligently pursue the earnings alert and could not post an
overpayment.

•    SSA staff did not initiate a redetermination until September 15, 2011 about 2 years
     after the date the alert was generated.
•    SSA staff determined the alerted earnings between January and December 2008
     belonged to the recipient and identified an overpayment of $500 each month, for a
     total of $6,000.
•    SSA staff could only consider the earnings 2 years before the date the staff opened
     the case since it did not diligently pursue the earnings alert. Accordingly, it could
     only address earnings from October 2009 to September 2011.
•    Because of the diligent pursuit and administrative finality rules, the Agency could not
     post the overpayments incurred from January to December 2008. SSA missed the
     opportunity to record and collect the total overpayment of $6,000.

In the examples above, had SSA developed the K6 earnings alert within 6 months, it
could have collected up to 12 months of overpayments. For each month after the
6-month diligent pursuit period, SSA can collect fewer and fewer months of
overpayments. While S2 alerts represent more current earnings, and staff has more
time available to work these alerts and collect the full overpayments, we reviewed alerts
that were pending well beyond the 6-month period and were uncollectible due to
administrative finality.

POPULATION OF CASES NOT DILIGENTLY PURSUED

We identified 16,952 earnings alerts from 1 segment of the SSR for recipients in current
pay status in May 2009. At that time, over 14,000 (86 percent) of the alerts were
pending for over 6 months. 20 Please see the chart below.



20
  SSA considers earnings alerts to meet diligent pursuit criteria when they are developed within
6 months.
Page 8 - The Commissioner



                Age of Earnings Alerts Pending in May 2009 for SSI                        Number of
                                                                                          records in May
                         Recipients in Current Pay Status                                 2009

                              8,682
        9,000
        8,000
        7,000
        6,000
        5,000                           4,057
        4,000
        3,000      2,312
                                                  1,582
        2,000
        1,000                                                275        39            5
            0
                Less than 6 months     1-2       2-3        3-4       4-5        over 5
                6 months - 1 year      years     years      years     years      years




As of May 2010, 2,883 of these alerts were still pending and had been pending for at
least 17 months. The age of the alerts in our population as of May 2010 is shown in the
table below.

                Age of Earnings Alerts as of
                                                                    Number of Records
                        May 2010 21
                           1 - 1 1/2 year                                      283
                           1 1/2 - 2 year                                     1,349
                            2 - 3 years                                        782
                            3 - 4 years                                        386
                            4 - 5 years                                         70
                            5 - 6 years                                         11
                           over 6 years                                         2
                                Total                                         2,883

We reviewed the 13 cases with earnings alerts pending for 5 or more years. We
determined that SSA missed the opportunity to collect overpayments for all 13 cases22
for 2 main reasons. SSA could not collect the overpayment for 9 of these 13 cases

21
     As of May 2010, all recipients had an alert date of December 29, 2008 or earlier.
22
  These cases were all in current pay at the time of their development and were required to be
developed. When the case is not in current pay, SSA staff can defer the earnings development until the
case is reinstated or a new claim is filed.
Page 9 - The Commissioner


because it did not develop the case timely. SSA incorrectly developed the earnings
alert for the remaining four cases. For instance, SSA staff posted unearned income on
the recipient’s record or took actions to make the recipient ineligible and deleted the
alert, but it did not simultaneously post wages for the 2 prior years allowable under
administrative finality.

We also reviewed a random sample of 250 of the 2,883 recipients in April 2011. SSA
had developed the earnings alerts for 131 of the 250 cases and posted overpayments of
approximately $420,000. In reviewing these cases, we concluded, and SSA confirmed,
that 58 of these individuals had additional improper payments of approximately
$160,000. We also reviewed the 119 cases SSA had not developed and found that
51 recipients were improperly paid approximately $318,000 because of the earnings
identified.

                                                             SSA Identified            OIG Identified
                                         Number of
                                                           Improper Payment          Improper Payment
                                         Individuals
                                                            as of April 2011          as of April 2011
 SSA Identified Overpayment                   73                 $213,326                      $0
 SSA Identified
 Overpayment/Underpayment,
                                              58                 $206,321                  $159,933
 but OIG Identified Additional
 Overpayment
 SSA Identified No Overpayment,
                                              51                     $0                    $317,619
 but OIG Identified Overpayment
 No Overpayment                               68                     $0                        $0

                Total                         250                $419,647                  $477,552


SSA could not record approximately $300,000 of the $478,000 of improper payments
we identified because staff did not diligently pursue the cases. The $300,000 of
improper payments occurred beyond 2 years from when the earnings alerts were
developed. 23 Under administrative finality rules, SSA can only collect improper
payments that occurred within 2 years of the reopening of a case that is not diligently
pursued unless fraud or similar fault is determined. Fraud or similar fault was not found
to have occurred in these cases.




23
  Under this rule, SSA cannot reopen previous determinations over 2 years old unless its staff finds fraud
or similar fault.
Page 10 - The Commissioner


Development of Earnings Alerts

Additionally, SSA staff did not develop the earnings correctly for 24 of 109 recipients.
We identified three general issues.

•     In 12 cases, SSA developed some earnings but did not develop all earnings that
      affected the SSI payment amounts. For example, SSA staff did not develop the
      earnings for a recipient when developing the earnings for the recipient’s spouse.
•     In 10 cases, SSA staff did not develop the earnings for all months allowed under
      SSA’s administrative finality rule. For example, SSA posted wages for 19 months in
      one case, but did not post wages for 5 additional months that were allowable under
      administrative finality. The Remarks screen in SSA’s MSSICS indicated that staff
      was going to post wages for these months, but the wages were not posted.
•     In two cases, SSA staff developed and verified the earnings in one SSA system but
      not another. More specifically, staff entered information in MSSICS but did not send
      the verified information to the SSR, which would have recorded the related
      overpayment. SSA staff use MSSICS to develop earnings alerts but have to take
      actions to send the developed information in MSSICS to the SSR. Once the
      information is in the SSR, an overpayment is recorded and SSA can attempt to
      collect it.

DILIGENT PURSUIT AND REDETERMINATION WORKLOAD MANAGEMENT

SSA policy 24 defines the diligent pursuit of earnings alerts as those worked within
6 months of when the alerts were created. As previously explained in this report, SSA
has the opportunity to record more overpayment months when alerts are diligently
pursued. While SSA has this policy, it instructed its staff to develop 55 to 60 percent of
its annual redetermination workload within the first 6 months of each FY before
FY 2013. Since a majority of earnings alerts are typically generated in the first half of a
FY 25 and addressed through the redetermination workload, delaying development of
40 to 45 percent of the redetermination workload lowered the likelihood that earnings
alerts in these cases were diligently pursued.

SSA’s policy to diligently pursue earnings alerts allows SSA to record the largest
possible overpayment when SSA staff confirm unreported earnings. Delays in
developing earnings alerts may lower the amount of improper payments SSA can
collect from overpaid recipients.




24
     SSA, POMS, SI 04070.040, Revising SSI Determinations (June 14, 2005).
25
 Of the 872,279 K6, K7, and S2 alerts generated for development in FY 2012, 487,970 (56 percent)
were available for development at the beginning of the first quarter of the FY and 604,700 (69 percent)
were available for development in the first half of the FY.
Page 11 - The Commissioner


EARNINGS ALERTS THAT DO NOT LEAD TO A CHANGE IN THE SSI PAYMENT
AMOUNT

Per SSA policy, 26 earnings alerts do not have to be developed if the earned income
would not affect SSI eligibility or payment. SSA’s current earnings alert system
identifies earned income for recipients or their deemor(s), regardless of whether the
earned income amount will affect a recipient’s eligibility or payment amount. As such,
SSA staff spends time determining whether earnings would negatively affect eligibility or
the payment amount thereby spending time developing unnecessary alerts.

Different recipients can earn different amounts of earned income before the earnings
affect their eligibility or payment amount based on the composition of their household.
For example, an individual recipient living alone, an individual living with a spouse, a
child recipient living with parents, and a child recipient living with parents and other
deeming children can all earn different amounts before their benefit payments would be
affected. SSA could generate earnings alerts that are more likely to result in a change
to a recipient’s eligibility or SSI payment amount if its systems considered the number of
household members, exclusions, and other factors that determine the SSI payment
amount along with the amount of earnings identified.

CONCLUSION AND RECOMMENDATIONS
Executive Order 13520, Reducing Improper Payments, 27 states that the Government
must make every effort to confirm that the right recipient receives the right payment for
the right reason at the right time. SSA’s earnings alert system identifies past earnings,
which may indicate a recipient was overpaid because of unreported earnings.

We found that SSA did not timely develop many earnings alerts. When SSA does not
diligently pursue earnings alerts, it may not be able to recover the full amount of
improper payments it could have if it had diligently pursued the alerts. We estimate that
SSA could have prevented or recovered approximately $110 million in SSI
overpayments for 25,140 recipients than SSA identified had it diligently pursued all
earnings alerts.

Further, we believe these results are understated. Our results are based on a sample
of 2,883 cases of earning alerts that were pending for a year or more. Over 86 percent
of the larger population of 16,952 earning alerts from which we selected our sample had
alerts that were not addressed within 6 months. Since SSA did not meet the diligent
pursuit requirement for these cases, staff may have missed opportunities to identify and
collect additional overpayments.



26
  SSA, POMS, SI 02310.055, Master Earnings File Match (January 23, 2006) and SSA, POMS,
SI 02310.062, State Wage Record Match (March 19, 2009) discuss procedures for no development.
27
     Reducing Improper Payments, 74 Fed. Reg. 62201 (November 25, 2009).
Page 12 - The Commissioner


While SSA’s policy of diligently pursuing earnings alerts provides SSA the opportunity to
collect additional months of overpayments when compared to cases not diligently
pursued, SSA had previously instructed its staff to develop slightly more than half of the
redetermination and limited issue workload in the first half of a FY. This policy and
SSA’s practice seemed contradictory and seemed to provide two different performance
metrics. The Agency reported to us that it had reassessed its management of the
redetermination workload and ended the practice of setting a mid-year goal for
redeterminations as of FY 2013. Since this change was implemented after we
concluded our audit work, we did not assess its impact on the development of earnings
alerts. Even with this change, SSA needs to ensure that it manages this workload in a
manner that maximizes the amount of overpayments identified.

SSA has limited resources, and those resources should be used as efficiently as
possible. SSA has an opportunity to redefine the current alert system to generate
earnings alerts more likely to be error-prone if it factors in the number of deemors and
siblings in the household and other pertinent information that may affect benefit
payment changes. SSA profiles cases for redeterminations based on multiple factors,
including whether the case has an earnings alert on record. Redeterminations may be
more likely to identify payment errors if SSA includes earnings alerts more likely to
identify earnings that result in a payment change in the profiles used to select the
redetermination cases.

Accordingly, we recommend that SSA:

1. Remind staff to develop alerts by taking all appropriate actions to post earnings to
   the SSR accurately and transmit earnings data to the SSR when recorded in
   MSSICS.

2. Evaluate whether it is cost-effective to establish earnings alerts more likely to lead to
   payment changes. More specifically, SSA should consider using focused criteria to
   generate earnings alerts that take into account other factors that determine the SSI
   payment amount along with the amount of earnings identified.

AGENCY COMMENTS
SSA agreed with the recommendations. See Appendix C for the Agency’s comments.




                                          Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope, Methodology, and Sample Results
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
Fed. Reg.   Federal Register
FY          Fiscal Year
IRS         Internal Revenue Service
LI          Limited Issue
MEF         Master Earnings File
MSSICS      Modernized Supplemental Security Income Claims System
OIG         Office of the Inspector General
POMS        Program Operations Manual System
RMA         Retrospective Monthly Accounting
SSA         Social Security Administration
SSI         Supplemental Security Income
SSN         Social Security Number
SSR         Supplemental Security Record
SSTNG       Starz and Stripes the Next Generation
U.S.C.      United States Codes
                                                                        Appendix B

Scope, Methodology, and Sample Results
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and other relevant
    legislation and guidance, as well as the Social Security Administration’s (SSA)
    regulations, rules, policies, and procedures.

•   Extracted 1 segment of all active Supplemental Security Records (SSR) with an
    earnings alert in May 2009, which identified 57,922 Supplemental Security Income
    (SSI) earnings alerts. We reviewed the extracted SSR and identified
    16,952 recipients in current pay status. Since SSA is not required to take any
    actions for the 40,058 individuals not in current pay or terminated status, we
    reviewed only the earnings alerts for 16,952 recipients in current pay status. From
    this population, we identified 3 groups: (1) 13,472 recipients whose earnings alert
    was cleared between May 2009 and May 2010; (2) 593 recipients who were no
    longer in current pay status as of May 2010 for which the earnings development is
    deferred; and (3) 2,883 recipients who were in current pay status and still had an
    unresolved earnings alert on their record approximately 1 year after our initial data
    extract.

•   Selected a random sample of 250 records from the 2,883 records. We reviewed the
    SSR, Modernized SSI Claims Systems, Summary Earnings Query Systems,
    Detailed Earnings Query, and other pertinent SSA records to identify potential
    overpayments.

•   Computed overpayments based on the best available information in SSA’s records.
    We used the earnings available in the Master Earnings File (MEF) and/or State
    wage amount available in the New York Region’s Intranet Website. For the
    frequency of wage payments, we used the last reported information and/or the
    determination made by Agency staff and recorded in the Modernized Supplemental
    Security Income Claims System. We posted 3 pay periods for 2 months in a year for
    biweekly paid wages or posted 5 pay periods for 4 months in a year for weekly paid
    wages. We used the MEF amount divided by 12 if the Detailed Earnings Query
    indicated earnings were from self-employment.

•   Compared the computed earnings from the above steps to the earnings posted on
    the SSR and determined potential overpayments that SSA staff had not developed.
    When the wages were from either the spouse or parent(s), we computed deeming
    income. In both situations, we used the manual Title XVI Interactive Comp available
    in the Personal Communicator Main Menu to compute correct Federal countable
    income. We also factored in the number of household members (that is, the number
    of ineligible spouse, parent, or child) that may affect the benefit amount.


                                           B-1
    Furthermore, we divided the computed deeming income by the number of eligible
    children, if applicable. We did not use Retrospective Monthly Accounting (RMA) 1
    when computing income because the difference did not materially affect the
    payment, to which SSA staff who reviewed our work agreed. We concluded that
    using the budget month would not have a significant impact on the overpayment
    computation.

•   Requested in September 2011 that SSA’s Office of Public Service and Operations
    Support review the 114 cases in which we identified overpayments. In May 2012,
    the Agency confirmed that 109 of the 114 cases had overpayments. SSA staff
    members verified the overpayment amounts that we had computed or re-computed
    the correct overpayment amount, if different.

•   Analyzed the work SSA completed.

We conducted our audit in the New York Audit Division between August 2011 and
May 2012. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our objective. The entities audited were SSA’s field offices
under the Office of the Deputy Commissioner for Operations. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.

SAMPLE RESULTS AND PROJECTIONS

We identified 16,952 recipients in current pay from 1 segment of the SSR with an
earnings alert in May 2009. To determine how efficiently staff developed these alerts,
we obtained SSR data for the same Social Security numbers (SSN) 1 year later in
May 2010. From this match, we identified 2,883 SSI recipients who were in current pay
status and still had an unresolved earnings alert about 1 year after our initial data
extract. We randomly selected a sample of 250 from the 2,883 cases and reviewed
SSA records in April 2011 to determine whether SSA staff resolved the earnings alert
and posted any overpayments accordingly.

SSA had developed the earnings alerts for 131 of the 250 cases and posted
overpayments of about $420,000. Estimating the results to the population, we estimate
that SSA had posted overpayments of $97 million for 30,220 recipients. (Refer to
Tables B-3 and B-5 for this estimated dollar amount and Tables B-2 and B-4 for the
estimated number of recipients.) However, we concluded, and SSA confirmed, that

1
  SSA, POMS, SI 02005.001, Retrospective Monthly Accounting Computation (September 22, 2010).
SSA bases payment for a month on known circumstances for a closed month. RMA has two elements:
the eligibility test, which is based on the individual's (or couple's) income, resources, and other factors in a
month; and the payment computation, which is generally based on the income in the second month
before the month for which payment is being computed, which is called the “budget month.”


                                                     B-2
58 of these individuals had additional improper payments. Another 51 individuals, whom
SSA had not previously identified as overpaid, also received improper payments.

SSA confirmed that additional improper payments of approximately $478,000 were
made to 109 of the 250 recipients because of the alerted earnings. We estimated our
results to the population and determined that 25,140 recipients or their representative
payees inaccurately reported their or their spouses or parents’ earnings to SSA and had
been overpaid due to their undeveloped earnings alerts. We estimate that SSA did not
post overpayments totaling over $110 million for these individuals. (Refer to Tables B-6
and B-8 for the estimated dollar amount and Tables B-4 and B-7 for the estimated
number of recipients.)

In total, 182 recipients received about $897,000 more than they were due in SSI
payments. Estimating this to the entire population, we estimate that SSA overpaid
41,980 recipients about $207 million.

The results of our sample and projections are noted below.

Table B-1 – Population and Sample Size

                         Description                                       Number of Beneficiaries
      Population Size (Extract from One Segment)                                            2,883
      Sample Size                                                                             250

Table B-2 – Number of Overpayments Identified by SSA

                               Description                                 Number of Beneficiaries
      Sample Results                                                                            73
      Point Estimate                                                                           842
      Projection - Lower Limit                                                                 712
      Projection - Upper Limit                                                                 982
      Estimate for Entire SSR 2                                                            16,840
       Note: All statistical projections are at the 90-percent confidence level.




2
    Represents the point estimate multiplied by 20 segments.


                                                       B-3
Table B-3 – SSI Overpayments Resulting from Earnings Alerts Development
Delays

                                                                                Improper Payments
                                  Description
                                                                               Due to Earnings Alerts
          Sample Results - Dollars Improperly Paid                                           $213,326
          Point Estimate - Dollars Improperly Paid                                         $2,460,071
          Projection - Lower Limit                                                         $1,860,835
          Projection - Upper Limit                                                         $3,059,306
          Estimate for Entire SSR 3                                                       $49,201,420
          Note: All statistical projections are at the 90-percent confidence level.


Table B-4 – Number of Individuals Identified by SSA as Overpaid that Had
Additional Overpayments

                                  Description                                 Number of Beneficiaries
          Sample Results                                                                           58
          Point Estimate                                                                          669
          Projection - Lower Limit                                                                549
          Projection - Upper Limit                                                                801
          Estimate for Entire SSR 4                                                           13,380
          Note: All statistical projections are at the 90-percent confidence level.

Table B-5 – SSI Overpayment Amount Established by SSA for Individuals Who
Had Both Overpayments Established by SSA and Improper Payments Identified
by OIG

                                                                                Improper Payments
                                  Description
                                                                               Due to Earnings Alerts
          Sample Results - Dollars Improperly Paid                                           $206,321
          Point Estimate - Dollars Improperly Paid                                         $2,379,290
          Projection - Lower Limit                                                         $1,723,108
          Projection - Upper Limit                                                         $3,035,473
          Estimate for Entire SSR 5                                                       $47,585,800
          Note: All statistical projections are at the 90-percent confidence level.




3
    Id.
4
    Id.
5
    Id.


                                                          B-4
Table B-6 – SSI Improper Payments Identified by OIG for Individuals Who Had
Both Overpayments Established by SSA and Improper Payments Identified by
OIG

                                                                                Improper Payments
                                  Description
                                                                               Due to Earnings Alerts
          Sample Results - Dollars Improperly Paid                                           $159,933
          Point Estimate - Dollars Improperly Paid                                         $1,844,348
          Projection - Lower Limit                                                         $1,257,388
          Projection - Upper Limit                                                         $2,431,308
          Estimate for Entire SSR 6                                                       $36,886,960
          Note: All statistical projections are at the 90-percent confidence level.

Table B-7 – Number of Improperly Paid SSI Recipients Identified by SSA Who Did
Not Have Overpayments Established by SSA

                                  Description                                 Number of Beneficiaries
          Sample Results                                                                           51
          Point Estimate                                                                          588
          Projection - Lower Limit                                                                475
          Projection - Upper Limit                                                                716
          Estimate for Entire SSR 7                                                           11,760
          Note: All statistical projections are at the 90-percent confidence level.

Table B-8 – SSI Improper Payments Resulting from Earnings Alert Development
Delays for Individuals Who Did Not Have Overpayments Established by SSA

                                                                                Improper Payments
                                  Description
                                                                               Due to Earnings Alerts
          Sample Results - Dollars Improperly Paid                                           $317,619
          Point Estimate - Dollars Improperly Paid                                         $3,662,787
          Projection - Lower Limit                                                         $2,360,281
          Projection - Upper Limit                                                         $4,965,293
          Estimate for Entire SSR 8                                                       $73,255,740
          Note: All statistical projections are at the 90-percent confidence level.




6
    Id.
7
    Id.
8
    Id.


                                                          B-5
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      November 29, 2012                                                       Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration’s
           Development of Earnings Alerts for Supplemental Security Income Recipients”
           (A-02-11-11185)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S DEVELOPMENT OF EARNINGS
ALERTS FOR SUPPLEMENTAL SECURITY INCOME RECIPIENTS” (A-02-11-11185)

Recommendation 1

Remind staff to develop alerts by taking all appropriate actions to post earnings to the SSR
accurately and transmit earnings data to the SSR when recorded in MSSICS.

Response

We agree.

Recommendation 2

Evaluate whether it is cost-effective to establish earnings alerts more likely to lead to payment
changes. More specifically, SSA should consider using focused criteria to generate earnings
alerts that take into account other factors that determine the SSI payment amount along with the
amount of earnings identified.

Response

We agree.




                                               C-2
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Audit Division, (212) 264-5295

   Christine Hauss, Audit Manager, (212) 264-5826

Acknowledgments

In addition to those named above:

   James Kim, Senior Analyst

   Alla Resman, IT Specialist

   Rajula Chandran, Senior IT Specialist

   Vincent Huang, Program Analyst

   Brennan Kraje, Statistician

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-02-11-11185.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
